<html>
<title> - TO ESTABLISH POLICIES AND PROCEDURES IN THE PEACE CORPS TO PROVIDE FOR THE SAFETY AND SECURITY OF VOLUNTEERS FROM RAPE AND SEXUAL ASSAULT, AND FOR OTHER PURPOSES; AND TO AMEND THE PEACE CORPS ACT TO REQUIRE SEXUAL ASSAULT RISK-REDUCTION AND RESPONSE TRAINING, THE DEVELOPMENT OF SEXUAL ASSAULT PROTOCOL AND GUIDELINES, THE ESTABLISHMENT OF VICTIMS ADVOCATES, THE ESTABLISHMENT OF A SEXUAL ASSAULT ADVISORY COUNCIL, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
TO ESTABLISH POLICIES AND PROCEDURES IN THE PEACE CORPS TO PROVIDE FOR 
THE SAFETY AND SECURITY OF VOLUNTEERS FROM RAPE AND SEXUAL ASSAULT, AND 
FOR OTHER PURPOSES; AND TO AMEND THE PEACE CORPS ACT TO REQUIRE SEXUAL 
ASSAULT RISK-REDUCTION AND RESPONSE TRAINING, THE DEVELOPMENT OF SEXUAL 
     ASSAULT PROTOCOL AND GUIDELINES, THE ESTABLISHMENT OF VICTIMS 
ADVOCATES, THE ESTABLISHMENT OF A SEXUAL ASSAULT ADVISORY COUNCIL, AND 
                           FOR OTHER PURPOSES 

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 2699 and H.R. 2337

                               __________

                           SEPTEMBER 21, 2011

                               __________

                           Serial No. 112-91

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/


                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

68-445 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 














                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2699, To establish policies and procedures in the Peace 
  Corps to provide for the safety and security of volunteers from 
  rape and sexual assault, and for other purposes................     3
  Amendment in the nature of a substitute to H.R. 2699 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida, and chairman, Committee 
    on Foreign Affairs...........................................    11
  Amendment to the amendment in the nature of a substitute to 
    H.R. 2699 offered by the Honorable Frederica Wilson, a 
    Representative in Congress from the State of Florida.........    18
H.R. 2337, To amend the Peace Corps Act to require sexual assault 
  risk-reduction and response training, the development of sexual 
  assault protocol and guidelines, the establishment of victims 
  advocates, the establishment of a Sexual Assault Advisory 
  Council, and for other purposes................................    19
  Amendment in the nature of a substitute to H.R. 2377 offered by 
    the Honorable Ted Poe, a Representative in Congress from the 
    State of Texas<greek-l>178 deg...............................    38
  Amendment to the amendment in the nature of a substitute to 
    H.R. 2377 offered by the Honorable Ted Poe<greek-l>179 deg...    60
  Amendments to the amendment in the nature of a substitute to 
    H.R. 2337 offered by the Honorable Frederica 
    Wilson<greek-l>30 deg........................................    65

                                APPENDIX

Markup notice....................................................    74
Markup minutes...................................................    75
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    77
TO ESTABLISH POLICIES AND PROCEDURES IN THE PEACE CORPS TO PROVIDE FOR 
THE SAFETY AND SECURITY OF VOLUNTEERS FROM RAPE AND SEXUAL ASSAULT, AND 
FOR OTHER PURPOSES; AND TO AMEND THE PEACE CORPS ACT TO REQUIRE SEXUAL 
ASSAULT RISK-REDUCTION AND RESPONSE TRAINING, THE DEVELOPMENT OF SEXUAL 
     ASSAULT PROTOCOL AND GUIDELINES, THE ESTABLISHMENT OF VICTIMS 
ADVOCATES, THE ESTABLISHMENT OF A SEXUAL ASSAULT ADVISORY COUNCIL, AND 
                           FOR OTHER PURPOSES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 21, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    Pursuant to notice, the committee meets this morning to 
mark up H.R. 2699, the Peace Corps Volunteer Service 
Improvement Act, and H.R. 2337, the Kate Puzey Peace Corps 
Volunteer Protection Act.
    As our members are aware, these reform measures enjoy 
strong bipartisan support and there are competing markups 
taking place in other committees this morning. Thus, as your 
offices were notified earlier this week, it is the intent of 
the Chair to consider these bills en bloc and by unanimous 
consent, including the substitute amendments sent to you on 
Monday and the five brief amendments sent to you yesterday.
    All members have copies of those documents before them. 
Then after we have concluded our expedited consideration, I 
will be glad to recognize myself, the ranking member, Judge 
Poe, and any other member who wishes to make statements on 
these measures. All members are given leave to insert written 
remarks into the record should they choose to do so.
    And seeing that a reporting quorum is present, without 
objection the following measures are considered as read and the 
Chairman is authorized to seek consideration of the following 
bills under suspension of the rules, and the following 
amendments to those bills which the members have before them 
shall be deemed adopted: H.R. 2699, the Peace Corps Volunteer 
Service Improvement Act, Ros-Lehtinen; and amendment 87 to H.R. 
2699 which is the amendment in the nature of a substitute 
provided to your offices on Monday; and amendment 35 to that 
amendment offered by Ms. Wilson of Florida--and it's been a 
delight to have been working with you, Ms. Wilson--thank you 
for your good suggestions on the bills; H.R. 2337, the Kate 
Puzey Peace Corps Volunteer Protection Act, the Poe amendment 
178 to H.R. 2337 which is the amendment in the nature of a 
substitute sent to your offices on Monday and the following 
amendments to that amendment 178, amendment 179 offered by 
Judge Poe and amendments 30, 33, and 34 offered by Ms. Wilson 
of Florida.
    Hearing no objection it is so ordered. The amendments and 
the amended bills are adopted. Without objection the staff is 
directed to make technical and conforming changes.
    [The information referred to follows:]

H.R. 2699 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
Ros-Lehtinen ANS to H.R. 2699 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]>

Wilson amendment to the ANS 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

H.R. 2337 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
ANS to H.R. 2337--Poe 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
Poe Amendment to the ANS to H.R. 2337 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT

Wilson three ANS to H.R. 2337 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Ros-Lehtinen. Now that we have completed formal 
consideration of these measures, I will recognize members for 
remarks. I have some remarks, but let me just turn 
to first to the ranking member and Judge Poe and 
any others who seek recognition. My good friend from 
California, Mr. Berman, is recognized.
    Mr. Berman. Well, thank you very much, Madam Chairman. 
Thank you for a number of things in terms of dealing with this 
legislation. I think this marks an important step toward 
improving the safety and security of volunteers that serve in 
the Peace Corps. We took up the issue of volunteer safety 
earlier this year after the broadcast of an extremely 
disturbing report on the ABC news program 20/20. The segment 
detailed the experiences of a number of young volunteers who 
were sexually assaulted while serving overseas, but didn't 
receive the care and support they needed from the Peace Corps. 
The show also examined the circumstances surrounding the death 
of Kate Puzey, a volunteer in the West African country of Benin 
who was murdered after reporting that a fellow teacher was 
sexually abusing some of his students.
    In May, we held a very useful hearing on these issues under 
your leadership with witnesses that included return volunteers 
who were survivors of sexual assault, the Inspector General of 
the Peace Corps, and the Peace Corps Director.
    The testimony we received from the survivors and the 
Inspector General provided very concrete suggestions on ways to 
improve the Peace Corps which we have done our best to 
incorporate into these bills. These include requiring the Peace 
Corps to have comprehensive policies and training for 
volunteers and staff on risk reduction and response; the 
establishment of a victim support office to focus exclusively 
on supporting victims of sexual assault and other crimes; and 
completing a Memorandum of Understanding between the Peace 
Corps and the State Department clarifying security-related 
responsibilities.
    To his credit, the Peace Corps Director, Aaron Williams, 
detailed the steps the Agency has already taken to improve 
support for victims of sexual assault and other crimes. And 
what he told us was very encouraging. The Peace Corps has 
already hired a victims advocate, established a confidentiality 
policy, and started the process of rewriting and updating their 
sexual assault risk reduction and response policies and 
training. These bills codify some of the important measures 
that Director Williams has put in place to ensure they are 
retained by future directors.
    At the hearing, I suggested that what we needed to do was 
some good old-fashioned oversight: Gathering facts, asking the 
tough questions, developing a responsible bipartisan approach 
to fix any problems we find. And that's what you've done with 
this work on the Peace Corps bills. We've gotten valuable input 
from the NGOs, advocacy groups, our partners in the Senate and 
the Peace Corps. The result is a comprehensive balanced bill 
that will make the Peace Corps a better organization for all of 
its volunteers and its partner countries.
    Madam Chairman, this is a model for how the legislative 
process is supposed to work and I'd truly like to thank both 
you and Mr. Poe and your staffs for involving us with you in 
developing these important issues.
    On its 50th anniversary, Peace Corps continues to perform a 
vital role in promoting community-based development in some of 
the world's poorest countries, sharing American values, 
enriching our own Nation by bringing knowledge of other 
countries and cultures back to the United States. No agency 
with such a modest budget has done more than the Peace Corps to 
extend America's presence in every part of the world. None has 
enjoyed such bipartisan support. These bills will strengthen 
the Peace Corps and help ensure the Agency can continue to do 
its important work well into the future. And I urge my 
colleagues to support these pieces of legislation.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman. The 
Chair recognizes herself for her statement.
    I'd like to thank the ranking member, Mr. Berman, for his 
support and his cooperation in a bipartisan manner on this 
timely issue. Versions of both of these bills were adopted by 
our committee as Title 10 of H.R. 2583, the Foreign Relations 
Authorization Act, and not a single one of the 84 amendments 
offered to the authorization bill altered the Peace Corps 
provisions. So it's important that Congress act now to put in 
place the protections contained in the two bills before us.
    I'd like to thank Ms. Lois Puzey, the mother of Kate Puzey. 
I'd like to thank Dr. Karestan Koenen, Jessica Smocheck, and 
Carol Clark who were so brave in their testimony before our 
committee. They were deeply inspiring, and our committee is 
committed to making sure that their voices are heard loud and 
clear.
    And now it's my pleasure to recognize the author of H.R. 
2337, Judge Poe, for his remarks on these measures. And my 
complete statement--as well as everyone's complete statement, 
as I said in the beginning--will be inserted in the record.
    Judge Poe is recognized.
    Mr. Poe. I want to thank the chairman for her great work on 
this legislation and the ranking member and the chairman for 
holding this mark up today.
    I first became aware of this tragic mistreatment of some 
volunteers in the Peace Corps when I met with victims last 
Fall. They talked about how the Peace Corps, in some areas, had 
a culture of blaming the victim when a crime was committed 
against the victim. Let me be clear. When a victim or person is 
raped, they are the victim of the crime and it's never their 
fault. The crime is always the fault of the perpetrator, never 
the victim.
    And, over the next few months after these first meetings, 
the media confirmed what victims had been telling me, that 
these were not just one or two isolated cases. The cases were 
representative of a problem that the Peace Corps was having. 
So, suddenly, I started hearing from Peace Corps volunteers 
previously and present who were mistreated by Peace Corps, 
those that had been with the Peace Corps and had left the Peace 
Corps, and those that were currently in the Peace Corps.
    One thing I want to make perfectly clear. I'm a big 
supporter of the Peace Corps. It does a great service for this 
nation. It's one of the best things that we have ever invented, 
but we need to fix some of the problems that are in the Peace 
Corps.
    After meeting with numerous victims, I met with the Peace 
Corps Director, Aaron Williams, in February. And I have a 
meeting with him again tomorrow. It appeared to me that he 
understood this issue and he was open to suggestions on how it 
could be solved and how Peace Corps victims could be protected 
overseas. He has taken some important steps toward reform. He's 
hired a Peace Corps first victim advocate in May to help 
support volunteers who were sexually assault or physically 
assaulted. But it's important for Congress to stand behind 
Director Williams and give him the power to change the culture 
in the Peace Corps beyond his tenure. That's what the Kate 
Puzey Peace Corps Volunteer Protection Act 2011 does.
    It has four main parts. It requires number one, the Peace 
Corps to follow best practices in the area of sexual assault, 
in the sexual assault field. Two, it sets up an Office of 
Victim Advocacy to help victims receive services. Three, it 
puts an advisory council in place to review the Peace Corps' 
sexual assault policy and implementation. And four, it 
establishes new confidentiality requirements including a system 
of restricted and unrestricted reporting for victims.
    My amendment to the bill has some minor changes that do not 
change the substance of the bill. For example, we clarify the 
guidelines of the restricted and unrestricted reporting system 
and they are to be drawn up by the Peace Corps. The bill has 
strong support of the former Peace Corps victims and as the 
chairman has testified or has mentioned, several of them have 
testified before this committee.
    So, being supported by victims and survivors including the 
brave advocacy groups, First Response Action, also RAINN, 
supports this legislation. RAINN is the nation's largest anti-
sexual violence organization. And the National Peace Corps 
Association supports this legislation.
    We do have one of the victims who came and talked to me and 
others on this committee about her encounters in the Peace 
Corps with us today. Jess Smochek is in the audience and I want 
to thank her for being here and being supportive, and being, of 
course, at the Senate when the Senate was marking up this 
legislation. And I thank her, and all the other victims, who 
have testified and brought information to this committee.
    I also want to thank the 15 of my colleagues on the 
committee that co-sponsored the bill, the chairman, the ranking 
member, Ms. Bass, Ms. Buerkle, Mr. Burton, Mr. Chabot, Mr. 
Connolly, Mr. Deutch, Mr. Faleomavaega, Mr. Payne, Mr. Rivera, 
Mr. Rohrabacher, Ms. Schmidt, Mr. Sires, and Ms. Wilson.
    I'd also like to call the Peace Corps volunteers and thank 
them for what they do abroad. I have used the phrase that they 
are the American angels abroad. They actually are doing that. 
They are the best ambassadors we have for this nation. And they 
go off to remote corners of the world, far away from their 
families, and the conveniences of the United States and they go 
to help other people. And what a great service they do to 
protect the reputation of the United States and they are the 
best ambassadors we have for this country.
    And so for many years, it appears to me, that in this area 
of supporting them when they are assaulted, we have failed them 
and now it's time for Congress to act and make sure that we 
right this wrong and protect our Peace Corps victims no matter 
where they are.
    Thank you, Madam Chairman, I yield back.
    Chairman Ros-Lehtinen. Thank you for your leadership on 
this issue, Judge Poe.
    Do other members seek recognition? Ms. Wilson is 
recognized.
    Ms. Wilson of Florida. Thank you so much, Madam Chair, for 
this legislation and thank you, Judge Poe, and thank you, 
Ranking Member Berman. I sincerely appreciate your acceptance 
and support of the four amendments I submitted today.
    I think it is of the utmost importance that we do 
everything in our power to ensure the safety of Peace Corps 
volunteers, particularly when we are discussing crimes as 
serious as sexual assault. An infringement on one's personhood 
is unforgivable and irreversible. An attack of that nature is 
accompanied by silent ghost victims. These victims will carry 
that with them for the rest of their lives. Unfortunately, many 
prospective volunteers do not fully realize the potential 
dangers that await them in their new service areas.
    Let me say this, I love the Peace Corps. It is essential. 
It is effective. And it should be expanded. And as an example 
of all that is right with American foreign policy. Let me also 
say that the bills passed here today will go a long way toward 
ensuring the safety of our nation's youth who volunteer the 
best years of their lives. But we could go further.
    I wish to offer another amendment today that I could not 
garner sufficient support for its passage, but that's okay. My 
amendment simply would have closed nations to the placement of 
Peace Corps members if they are repeatedly the largest 
perpetrators of sexual assault on our young men and women. 
Further, failing to prosecute reported assaults would lead to 
the barring of Peace Corps members as well. I'm not naive. I 
realize the message this would send to those nations affected. 
And that message needs to be sent. I refuse to stand by and do 
nothing. I refuse to watch as bad actors continue on in the 
very manner we are trying to address. But I promise it is an 
issue around which I will continue to fight.
    Thank you for allowing me to make this statement. And thank 
you, to the committee, for all of the wonderful work you have 
done. Let us stay vigilant. Let us stay strong. And let us stay 
secure.
    I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much and I thank the 
gentlelady from Florida for her valuable contributions in her 
amendments to this bill. It has made it stronger, provided 
greater safeguards for our Peace Corps volunteers. Every one of 
her amendments improved the bill. And don't give up on us yet. 
We're still working on the other issues that remain unresolved.
    Do any other members seek recognition to make a statement 
on the bill? Seeing no additional hands up nor hearing 
additional requests to speak, I would like to thank all of our 
members for their cooperation. Just so arriving members are 
clear, the committee had already adopted the bills and 
bipartisan amendments sent to your offices earlier this week 
and concluded our formal consideration. So at this point I was 
just recognizing members who would like to make a statement, 
but feel free to put in your statement as part of the record. 
And thank all of you for your cooperation and with that, the 
committee stands adjourned. Thank you.
    [Whereupon, at 10:20 a.m., the committee was adjourned.]
                                     

                                     















                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record Notice 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
